  

XAVIER BECERRA State of California
Attorney General DEPARTMENT OF JUSTICE

1300 [STREET
SACRAMENTO, CA 95814.

 

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

February 19,2020
Via Electronic Filing System and Overnight Delivery

Hon. Scott §. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

RE: California, et al., v. Texas, et al., No. 19-840
United States House of Representatives v. Texas, et al., No. 19-841
Texas, et al. v. California, et al., No. 19-1019

Dear Mr. Harris:

I write on behalf of the state cross-respondents in No. 19-1019, who are petitioners in No.
19-840 and respondents aligned with the petitioner in No. 19-841. The Court is scheduled to
consider the petition in No. 19-840 (along with the petition in No. 19-841) at the February 21,
2020 conference. On February 14, the cross-petitioners in No. 19-1019, who are respondents in
No. 19-840 and No. 19-841, filed a conditional cross-petition. The cross-petition argues that, if
the Court grants the petition in No. 19-840 or No, 19-841, it should also grant the cross-petition
to “ensure that any writ of certiorari . . . encompasses whether the circuit court should have
affirmed the district court’s judgment in its entirety.” Cross-Pet. 2. It further argues that the
minimum coverage provision is inseverable from the rest of the ACA’s “remaining provisions.”
Td, at 11-12.

For the reasons explained in the petition in No. 19-840 (at 23-26) and in the reply in
support of that petition (at 11-12), we disagree with cross-petitioners’ theory of severability. We
agree, however, that this Court should have-the ability to decide the full range of remedial issues
presented by this important case. Accordingly, the state cross-respondents in matter No. 19-1019
acquiesce to the conditional cross-petition. In light of that position, we do not intend to file a
response to the cross-petition, but would be happy to do so should the Court request one.!

! We agree with the proposal by the House of Representatives in its February 18, 2020 letter
regarding how the Court should align the parties for purposes of briefing and argument if it
grants any of the pending petitions.
February 19, 2020

Page 2

ce:

Sincerely,

aS

A get

Deputy Solicitor General

For XAVIER BECERRA
Attorney General
Douglas N. Letter
General Counsel
U.S. House of Representatives

Noel J. Francisco
Solicitor General
United States Department of Justice

Kyle D, Hawkins

Solicitor General

Office of the Attorney General
State of Texas

Robert Henneke
Texas Public Policy Foundation
Center for the American Future
